Supreme Court of the United States

BECKER GALLAG HER
Briefs

and

United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Pedro Pete
Benevides v. United States of America was sent via
Three Day Service to the U.S. Supreme Court, and
Three Day and e-mail Service to the following parties
listed below, this 13th day of July, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTME NT OF JUSTICE
950 Pennsylvan ia Ave., N.W.
Washington , DC 20530-0001
(202) 514-2217
SupremeCtB riefs@USDO J.gov
Counsel for Respondent
Andrew B. Greenlee, Esq.*
Andrew B. Greenlee, P.A.
401 E. 1st Street, Unit 261
Sanford, Florida 32772
407-808-641 1
andrew@an drewgreenle elaw.com
*Counsel of Record for Petitioner
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 13, 2020.

Donna J. Wolf
Becker Gallagher Legal Pub · · · g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

1

~

